                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTJGA TlONS

                                              CLOSEOUT MEMORANDUM

 Case Number: Al2050030                                                                        Page 1 of 1



                  During an investigative review of recent awards, 1 NSF OIG identified a proposae that
          contained copied text that was not appropriately cited. In this case, NSF OIG determined the PI's 3
          actions did not rise to the level of research misconduct because while the copied text was not
          adequately distinguished from the original text, the sources for the copied text were included in the
          proposal and references. The PI was sent a letter reminding him to carefully and fully cite and
          distinguish all source materials. Accordingly, this case is closed.




NSF OIG Form 2 (11 /02)
